WAIVER

Supreme Court of the United States

No. 20-1133

Nicholas L. Triantos vy. Deutsche Bank National Trust Company,
as Trustee for Morgan Stanley ABS
Capital I Inc. Trust 2004-HE4, Mortgage
Pass-Through Certificates, Series 2004-
HE4, et al.
(Petitioner) (Respondents)

requested by the Court.

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is

Please check the appropriate box:
© Jam filing this waiver on behalf of all respondents.

aa Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

TY Deas “Resse Ted sare WesCo gery
as \ehskee ong Shes Sethe woSsnntnry ee:

Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

OQ Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form

to: Supreme Court, Attn: ay ’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature.
= VAN. Urey
Date: Soa =

ekar = Compe

(Type or print) Name _
Mr. OMs. O Mrs. D Miss

a, Ea kerk yer Coan & Peautro® Oe

Address Ss SoeMare Me) “N\sce X \6 Wher
City & State Vossen. MAC _ Zip SRMe_

Phone GN SAS ECBO pe Beare @ Calor Rearnens: oes

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

Biye4o eS \ benton, ? aS Qe
